Case #:

THE SUPREME COURT OF THE UNITED STATES
Original Case Number: 19CV701

Tamara Rouhi

Original Case/Complaint/Exhibits
Filed: 3/6/19

Plaintiff/Appellant
V
CVS Pharmacy (CVS Health Inc)
Giant Pharmacy (Ahold Delhaize)
Wegmans Pharmacy (Wegmans Food
Markets Inc)
Walgreens Pharmacy (Walgreen Co.)
Nature Care/Health Mart Pharmacy
(McKesson Inc)

Appellate Court Case Number:
20-1462
A review from the US Court of
Appeals for the Fourth Circuit.
Civil Case.
Jury not requested.

Defendants/Appellee
APPENDIX VOLUME I: COURT FINDINGS
Alston & Bird LLP

DeCaro Doran Siciliano

Semmes Attorneys at Law

950 F Street NW

Gallagher & DeBlasis

25 South Charles Street,

Washington, DC 20004

LLP

Suite 1400 Baltimore, MD

2022393300

17251 Melford Boulevard,

21201

Counsel for CVS Pharmacy

Suite 200 Bowie, MD 20715

Counsel for Wegmans

(CVS Health Inc)

3013524950

Pharmacy (Wegmans Food

Whiteford, Taylor, Preston,

Counsel for Giant

Markets Inc)

LLP

Pharmacy (Ahold Delhaize)

Zuckerman Spaeder LLP

7 Saint Paul Street

Pro Se

100 E Pratt St Ste 2440

Baltimore, MD 21202

Plaintiff/Appellant

Baltimore, MD 21202

18009878705

Tamara Rouhi

4103320444

Counsel for Walgreens

125 Fennington Circle

Counsel for Nature

Pharmacy (Walgreen Co.)

Owings Mills MD 21117

Care/Health Mart Pharmacy

4105228217

(McKesson Inc)

410539504

Table Of Contents
Court Findings
Document

Page Number

An
Order
Dismissing
the 3
Original Case
From Judge Richard D. Bennett.
Memorandum Opinion
4-15
A Document that was filed with the
Order that dismissed the Original
case, from Judge Richard D.
Bennett.
Memorandum Order
16-18
An Order denying the Plaintiff’s
Motion for Reconsideration, from
Judge Richard D. Bennett.
19
Judgement
From the US Court of Appeals by a
Clerk (unsigned)
20-21
Unpublished Opinion
From the US Court of Appeals by an
unknown person (unsigned)________

2

Case l:19-cv-00701-RDB Document 43 Filed 02/24/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
*

TAMARA ROUHI,
Plaintiff,

*

v.

*

Civil Action No. RDB-19-0701

CVS PHARMACY, eta/.,

*

Defendants.

*

*

*

*

*

*

*

*

*

*

*

*

*

*

ORDER
For the reasons stated in the accompanying Memorandum Opinion, it is this 24th day
of February, 2020, hereby ORDERED that:
1. Defendant Wegmans Pharmacy’s Motion to Dismiss for Failure to State a Claim (ECF
No. 5) is GRANTED;
2. Defendant CVS Pharmacy’s Motion to Dismiss Complaint Pursuant to Fed. R. Civ. P.
12(b)(1) and 12(b)(6) (ECF No. 13) is GRANTED;
3. Defendant McKesson Corporation’s Motion to Dismiss, or in the Alternative, for
Summary Judgment (ECF No. 14), construed as a Motion to Dismiss, is GRANTED;
4. Defendant Giant Pharmacy’s Motion to Dismiss Complaint Pursuant to Fed. R. Civ.
P. 12(b)(1) and 12(b)(6) (ECF No. 24) is GRANTED;
5. Defendant Walgreens Pharmacy’s Motion to Dismiss Plaintiffs Complaint (ECF No.
27) is GRANTED;
6. Plaintiffs Complaint is DISMISSED WITHOUT PREJUDICE as to all Defendants;
7. The Clerk of Court transmit copies of this Order and accompanying Memorandum
Opinion to the parties; and
___ _________ .

Case l:19-cv-00701-RDB Document 43 Filed 02/24/20 Page 2 of 2
»•

8. The Clerk of Court shall CLOSE THIS CASE.

3

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 1 of 12

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
TAMARA ROUHI,
*

Plaintiff,

Civil Action No. RDB-19-0701

v.

CVS PHARMACY, et al,

*

Defendants.

*

*

*

*

*

*

*

*

*

memorandum opinion
Pro se Plaintiff Tamara Rouhi (‘Tkintiff’ or “Rouhi”) of Owings Mills, Maryland has
filed suit in this Court against five pharmacies located in the greater Baltimore area, which she
identifies as CVS Pharmacy (“CVS”),1 Giant Pharmacy (“Giant”),2 Wegmans Pharmacy
(“Wegmans”),3 Walgreens Pharmacy (“Walgreens”),4 and “Nature Care/Health Mart
Pharmacy” (“Nature Care” and “Health Mart”) (collectively, “Defendants”)-5 Rouhi alleges
violations of several Maryland criminal statutes, Md. Code Ann., Crim. Law § 3-802 (stalking),
3-803 (harassment), § 3-804 (misuse of telephone facilities), and § 3-805 (misuse of an
interactive computer service), and brings a claim of “general invasions of privacy.” (Compl.
2 ECF No. 1.) Rouhi also alleges “invidious discrimination, refusal of equal access to goods
and services (Civil Right), and general invasions of privacy.” (Id.) Rouhi purports to bong

1 Defendant CVS moves to dismiss under the name “CVS Pharmacy, Inc.” (ECF No. 13.)
2 Defendant Giant moves to dismiss tinder the name “Giant of Maryland, LLC.” (ECF No. 24.)
3 Defendant Wegmans moves to dismiss under the name “Wegmans Food Market Inc” (ECF No. 5.)
4 Defendant Walgreens moves to dismiss under the name “Walgreens Co.” (ECF No. 27.)
s “Nature Care/Health Mart Pharmacy” does not describe a single entity. Health Mart Systems, Inc.
(“Health Mart”) is a franchisor which provides support services to franchisee pharmacies, such as Nature Care
Pharmacy (“Nature Care”). (ECF No. 14-1 at 3.)

4

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 2 of 12

this action under this Court’s federal question and diversity jurisdiction. See 28 U.S.C. §§
1331,1332.
Now pending are Wegmans’s Motion to Dismiss for Failure to State a Claim (ECF No.
5); CVS’s Motion to Dismiss Complaint Pursuant to Fed. R. Civ. P. 12(b)(1) and 12(b)(6) (ECF
No. 13); McKesson Corporation’s6 Motion to Dismiss, or in the Alternative, for Summary
Judgment (ECF No. 14); Giant’s Motion to Dismiss Complaint Pursuant to Fed . R. Civ. P.
12(b)(1) and 12(b)(6) (ECF No. 24); and Walgreens’ Motion to Dismiss Plaintiffs Complaint
(ECF No. 27). The parties’ submissions have been reviewed and no hearing is necessary. See
Local Rule 105.6 (D. Md. 2018). For the reasons stated herein, the Motions to Dismiss (ECF
Nos. 5, 13, 14, 24, 27) are GRANTED. Plaintiffs Complaint is DISMISSED. In light of
Plaintiff spro se status, dismissal shall be WITHOUT PREJUDICE.
BACKGROUND
In ruling on a motion to dismiss, the factual allegations in the plaintiffs complaint must
be accepted as true and those facts must be construed in the light most favorable to the
plaintiff. WiUmiia Vrnni. v. Nal’ISec. Ageng, 857 F.3d 193, 208 (4th Cir. 2017) (citing SD3,
VLCv. Black & Decker (US.) Inc., 801 F.3d 412,422 (4th Cir. 2015)). Plaintiff Tamara Rouhi’s
Complaint describes several episodes of purported mistreatment at five pharmacies in the
greater Baltimore area.

Her Complaint is supplemented with sixty-six exhibits, consisting of

what appear to be photographs taken within various pharmacies and screen captures of emails
and other communications on her cell phone. Rouhi generally complains that the Defendant

<s Plaintiff served McKesson Corporation as the parent company of Health Mart. (ECF No. 31 at 45.) Plaintiff did not serve Defendants Nature Care and Health Mart.

2

5

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 3 of 12

pharmacies required her to present identification to pick up prescription refills, treated her
disrespectfully, and did not fill her prescriptions in a timely fashion or at all. She alleges that
these incidents amount to criminal activity and civil rights abuses. Her claims against each
Defendant are summarized below. An overview of this case’s procedural posture follows.
I.

Allegations Against CVS.
Rouhi alleges that, beginning in early 2018, employees at a CVS Pharmacy in

Reisterstown, Maryland began asking for her driver’s license when she attempted to pick up
prescriptions. (Compl. f 1, ECF No. 1.) After she protested that Maryland law did not require
her to present identification at the pharmacy and contacted CVS’s Customer Relations
Department to complain, Rouhi claims that the employees became “increasingly rude” and
continued to ask for her identification. (Id.

2-4.) Rouhi alleges that the CVS employees

began to cancel her prescription refill requests and refused to fill her prescriptions without
providing a compelling rationale for their actions. (Id. 1fl[ 5-10, 16.) At some point, Rouhi
claims, “[ejvery CVS Pharmacy employee yelled at me from behind the counter for around 30
minutes.” (Id. 1} 18.) Rouhi also complains of frequent automated phone calls from CVS
inquiring about her prescriptions. (Id. ^ 11.)
II.

Allegations Against Giant. ,
Beginning in 2017, staff at a Giant Pharmacy in Reisterstown, Maryland allegedly

“constantly harassed” Rouhi. (Id. U 20.) The alleged harassment took the form of failing to
call Rouhi by her name, being “rude” to her, frequently calling her, and cancelling her
prescription requests. (Id.

21, 24,37.) Rouhi alleges that she “argued with Giant Pharmacy

3
(O

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 4 of 12

staff for weeks and never got pier] medication, just delayed health cate.

(Id.

26.) After this

prolonged dispute, Giant employees allegedly began cancelling her online prescription orders
and prevented her from submitting new ones.

(Id. 1fij 32-33.)

Rouhi reported Giant’s

“harassment and theft” to the police, but the police allegedly “did nothing” in response to her
call. (Id. H 35.)
III.

Allegations Against Wegmans.
Rouhi claims that she was a customer of a Wegmans Pharmacy in Owings Mills,

Maryland “on and off’ in 2017 and 2018. (Id. H 38.) In 2017, employees at the pharmacy were
allegedly “rude” to her and refused to give her a flu shot (Id H 39.) In 2018, employees began
requiring her to produce identification when picking up and dropping off her prescriptions.
(Id. T1 40.) Rouhi generally complains that her prescription refills were not available on time
and that her complaints were not adequately addressed. (Id
IV.

42-46.)

Allegations Against Walgreens.
Rouhi’s allegations against Walgreens are somewhat difficult to decipher. Rouhi claims

that she visited a Walgreens Pharmacy in Reisterstown, Maryland on January 8, 2019. (Id H
48.)

During the visit, Rouhi provided an insurance card, identification, and a phone number.

(Id 49-50.) Although she was told that her prescriptions would be ready in twenty minutes,
“[a] man”—presumably a Walgreens employee—informed Rouhi that the pharmacy could not
fill her prescriptions

because “it had been over 30 days.” (H. fl 50-51.) Rouhi claims that she

“argued with the man

” and asked him to “write the situation down with a pen.” (Id ^ 52.)

After the man wrote something on a print-out, she left the store. (Id. U 52, 54.)
4

7

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 5 of 12

V.

Allegations Against Nature CareOn January 10, 2019, shortly after her prescriptions were rejected at Walgreens, Rouhi

presented them at a Nature Care pharmacy in Reisterstown, Maryland. (Id ^ 55.) Rouhi claims
that she was asked to step aside and speak with a cashier—a request she claims was not made
of other customers. (Id f 56.) To the cashier she presented her insurance card and the
prescriptions rejected by Walgreens. (Id *|j 57.) After some time passed, the cashier informed
Rouhi that the pharmacy could not fill her prescriptions because they were written over thirty
days ago. (Id. ^ 58.) The pharmacy employees refused to fill her prescription and did not tell
her the price of the medications. (Id

61.) Rouhi called her doctor and handed her phone to

a cashier, who passed the phone to a pharmacist. (Id

63.) The pharmacy employees

ultimately refused to fill these prescriptions. (Id 1f 68.) While she was waiting for a separate
prescription to be filled, a white male7 customer approached the pharmacy. (Id. U 66.) When
he approached, a pharmacy employee allegedly yelled at Rouhi and told her to wait in the back
of the store to protect the man’s privacy. (Id.) Ultimately, Rouhi left the store with one
prescription filled and two others rejected. (Id. ^ 68.)
VI.

Procedural Posture.
Rouhi filed her Complaint on March 6, 2019. (ECF No. 1.) Rouhi alleges violations

of several Maryland criminal statutes, Md. Code Ann., Crim. Law § 3-802 (stalking), 3-803
(harassment), § 3-804 (misuse of telephone facilities), and § 3-805 (misuse of an interactive
computer service), and brings a claim of “general invasions of privacy.

(Compl. 2, ECF No.

7 This is the only reference to race in Rouhi’s Complaint. The Complaint does not specify whether
Rouhi belongs to a protected class.

5

<8

ii

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 6 of 12

1.) Rouhi also alleges “invidious discrimination,” and “refusal of equal access to goods and
services (Civil Right) [sic].” (Id) Rouhi purports to bring this action under this Court’s federal
question and diversity jurisdiction.
Rouhi served some, but not all, of the Defendants.

CVS, Giant, V’egmans, and

Walgreens received service of process, and each of these Defendants have moved separately
to dismiss the Complaint. (ECF Nos. 5,13, 24, and 27). Considered together, their Motions
seek dismissal pursuant to Fed. R. Civ. P. 12(b)(1) (lack of jurisdiction) and 12(b)(6) (failure to
state a claim). Rouhi did not serve Nature Care or Health Mart Instead, she served Health
Mart’s parent company, McKesson Corporation. (ECF No. 3 at 5; ECF No. 4, ECF No. 31
at 4-5.) McKesson Corporation has filed a Motion to Dismiss based on Fed. R. Civ. P. 12(b)(4)
(insufficient process) and 12(b)(6) (failure to state a claim). Nature Care and Health Mart have
not responded to the Complaint.
STANDARD OF REVIEW

I.

Motion to Dismiss Pursuant to Rule 12(b)(1)
A motion to dismiss under Rule 12(b)(1) of the Federal Rules of Civil Procedure for

lack of subject matter jurisdiction challenges a court’s authority to hear the matter brought by
plaint. S« Davis v. Thompson, 367 F. Supp. 2d 792, 799 (D. Md. 2005). This challenge
a com
under Rule 12(b)(1) may proceed either as a facial challenge, asserting that the allegations in
the complaint are insufficient to establish subject matter jurisdiction, or a factual challenge,
asserting “that the jurisdictional allegations of the complaint [are] not true.

Kerns v. United

States, 585 F.3d 187,192 (4th Cir. 2009) (citation omitted). Defendants CVS and Giant have
6

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 7 of 12

sought dismissal based on the face of Rouhi’s Complaint. With respect to a facial challenge,
a court will grant a motion to dismiss for lack of subject matter jurisdiction “where a claim
fails to allege facts upon which the court may base jurisdiction.” Davis, 367 F. Supp. 2d at 799.

II.

Motion to Dismiss Pursuant to Rule 12(b)(6)
Under Federal Rule of Civil Procedure 8(a)(2), a plaintiff is required to plead “a short

and plain statement of the claim showing that the pleader is entitled to relief.” The purpose
of this requirement is to “to give the defendant fair notice of what the claim is and the grounds
upon which it rests.” Bell Atlantic Corp. v. Tmmbly, 550 U.S. 544, 555 (2007) (citation and
internal quotations omitted). Consequendy, “a formulaic recitation of the elements of a cause
of action will not do.”- Id. (citation omitted). Similarly, “an unadorned, the-defendantunlawfully-harmed-me accusation” is insufficient. Ashcroft v. Iqbal, 556 U.S. 662,678,129 S.Ct
1937 1949 (2009). Rather, to withstand a motion to dismiss, a complaint must contain
sufficient factual matter, accepted as true, to state a claim to relief that is plausible on its face,
meaning the court could draw “the reasonable inference that the defendant is liable for the
conduct alleged.” Id (internal quotations and citation omitted).
This Court has “liberally construed” Plaintiffs pleadings and held them to less
stringent standards than formal pleadings drafted by lawyers” because she is proceeding^ ».
Erickson v. Pardus, 551 U.S. 89,94 (2007); Alley v. Yadkin County SheriffDept., No. 17-1249, 698
F. App’x 141, 2017 WL 4415771 (4th Cir. Oct. 5, 2017). However, a plaintiffs^ se status
does not absolve her of the duty to satisfy federal pleading standards. See Stone v. Warfield, 184

7

I

10

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 8 of 12

F.R.D. 553, 555 (D. Md. 1999) (citing Anderson v. Univ. o/Md. Sch. OfLaw, 130 F.R.D. 616, 617
(D. Md. 1989), affd, 900 F.2d 249,1990 WL 41120 (4th Ck. 1990)).
ANALYSIS
Defendants seek dismissal on overlapping grounds, invoking Fed. R. Civ. P. 12(b)(1)
(lack of jurisdiction), 12(b)(4) (insufficient service), and 12(b)(6) (failure to state a claim). This
Court need not reach all of the arguments presented in the Defendants’ motions. On its face,
Plaintiffs Complaint fails to establish a basis for this Court to exercise jurisdiction over this
matter. This defect is symptomatic of the Complaint’s broader failure to state a claim of any
kind. Accordingly, Plaintiffs Complaint is DISMISSED WITHOUT PREJUDICE.
I.

Lack of Subject Matter Jurisdiction.
Federal courts are courts of limited jurisdiction and “may not exercise jurisdiction

absent a statutory basis.” Exxon Mobile Corp. v. Allapattah'Servs., Inc., 545 U.S. 546, 552,125 S.
Ct 2611 (2005). In her Complaint, Plaintiff claims that this Court may exercise diversity
jurisdiction over this case pursuant to 28 U.S.C. § 1332. Section 1332 requkes, with the
exception of certain class actions, complete diversity among parties. 28 U.S.C. § 1332; Central
West Virginia Energy Co., Inc. v. Mountain State Carbon, LLC, 636 F.3d 101,103 (4th Ck. 2011).
This means that “the citizenship of every plaintiff must be different from the citizenship of
eve ry defendant.” Central West Virginia Energy, 636 F.3d at 103 (citing Caterpillar, Inc v. Lewis,
519 U.S. 61, 68,117 S. Ct. 467,135 (1996)). For purposes of diversity jurisdiction, a limited
liability company’s citizenship is determined by the citizenship of all of its members. Id. at

103. For purposes of diversity jurisdiction, a corporation is “deemed to be a citizen of the
8

II

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 ■ Page 9 of 12
State by which it has been incorporated and of the State where it has its principal place of
business.” 28 U.S.C. § 1332(c)(1).
In this case, Plaintiff has failed to allege complete diversity among the parties. Rouhi
is a citizen of Maryland. She alleges that Giant is also a citizen of Maryland. Giant confirms
this in

its Motion to Dismiss. The Giant Pharmacy Rouhi seeks to sue is operated by Giant

of Maryland LLC. (Aff. of Bruce Astrachan f 2, ECF No. 24-2.) The sole member of Giant
of Maryland LLC is Giant Food LLC. (Id H 3.) Giant Food LLC also has only one member.
Ahold U.S.A. Inc., a corporation formed under the law of Maryland with principal offices,
located in Quincy, Massachusetts.

(Id H 4.) Under § 1332(c)(1), Ahold U.S.A; Inc. is

considered a citizen of both Maryland and Massachusetts for purposes of diversity jurisdiction.
As its only member, Ahold U.S.A. Inc.’s Maryland citizenship is imputed to Giant Food LLC
and, in turn, to Giant of Maryland LLC. Accordingly, complete diversity does not exist, and
this Court cannot exercise diversity jurisdiction over this matter.
In a contemporaneously filed “Amendment to Complaint,” Rouhi acknowledges that
“one

of [the Defendants] is located in Maryland” but seeks leave to amend her Complaint to

insert federal question as a basis for this Court’s jurisdiction. (ECF No. 1-2.) Federal question
jurisdiction exists over all civil actions that “arise under the Constitution, laws, or treatises of
the United States.” 28 U.S.C. § 1331. In determining whether a case “arises under the
Constitution, laws, or treatises of the United States,” this Court applies the well-pleaded
complaint rule, “which holds that courts ‘ordinarily . . . look no further than the plaintiffs
[properly pleaded] complaint in determining whether a lawsuit raises issues of federal law
capable of creating federal-question jurisdiction under 28 U.S.C. § 1331.’” Pinny v. Nokia, Inc.,
9

IZ

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 10 of 12

402 F.3d 430,442 (4th Cir. 2005) (quoting Custer v. Sweeney, 89 F.3d 1156,1165 (4th Cir. 1996)).
A plaintiff must precisely identify the federal cause of action she is bringing to establish
jurisdiction under § 1331. See, e.g, Lee v. Dep’to/Pub. Safety & Corr‘lSem., RWT-13-1341,2014
WL 1120238, at *3 (D. Md. Mar. 19, 2014) (dismissing action pursuant to Fed. R. Civ. P.
12(b)(1) and (b)(6) because Plaintiff failed to invoke a federal cause of action by merely
identifying “Excessive Punishment, Excessive Restriction of Liberty etc.” on cover sheet to
Complaint).
In this case, Plaintiff has failed to identify the federal cause of action which would
permit this Court to exercise federal question jurisdiction. Plaintiffs Complaint does not
reference a federal statute or constitutional provision. Aside from the Maryland criminal
statutes she invokes, Plaintiff complains only of “invidious discrimination, refusal of equal
access to goods and sendees (Civil Right) [sic], and general invasions of privacy.” (ECF No.
1 at 2.) These statements impart only a vague sense of what Plaintiff intends to claim, and are
insufficient to establish a firm basis for federal question jurisdiction. As the Complaint fails
to establish a statutory basis for this Court’s exercise of jurisdiction, it must be dismissed.
II.

Failure to State a Claim.
The Complaint’s failure to establish a basis for jurisdiction is symptomatic of a larger

problem with Plaintiffs pleadings. That is, the Complaint fails to state a claim of any kind.
Each purported cause of action is marred by several defects. Plaintiff lacks a private cause of
action to bring civil claims under the Maryland criminal laws she cites. See, e.g., Demo v. Kirksey,
PX-18-0716,2018 WL 5994995, at *6-7 (D. Md. Nov. 15, 2018) (dismissing claim under Md.

10

li

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 11 of 12

Code Ann., Cam. Law § 3-803 because the law did not create a private right of action). It is
unclear whether Plaintiffs brief reference to “general invasions of privacy” is intended to
invoke a federal or state constitutional protection or whether Plaintiff is pursuing a Maryland
tort law claim, such as “unreasonable intrusion upon the seclusion of another.” See Woodbuty
v. Victory Van lines, 286 F. Supp. 3d 685, 696 (D. Md. 2017) (discussing “the four different
forms” of the tort of invasion of privacy recognized under Maryland law). Finally, Plaintiffs
allegation of “invidious discrimination” and “refusal of equal access to goods and services”
are not anchored to any federal or state statute, rendering them impossible to evaluate or for
the Defendants to properly address,

To the extent that Plaintiff intends to bring a

discrimination claim, such a claim would fail because her Complaint does not allege that she
belongs to a protected class or plausibly suggest that her unpleasant interactions with
pharmacy staff were the results of discrimination.8
CONCLUSION
For the foregoing reasons, Wegmans’s Motion to Dismiss for Failure to State a Claim
(ECF No. 5) is GRANTED; CVS’s Morion to Dismiss Complaint Pursuant to Fed. R. Civ. P.
12(b)(1) and 12(b)(6) (ECF No. 13) is GRANTED; McKesson Corporation’s Motion to
Dismiss, or in the Alternative, for Summary Judgment (ECF No. 14), construed as a Motion
to Dismiss, is GRANTED; Giant’s Motion to Dismiss Complaint Pursuant to Fed. R. Civ. P.
12(b)(1) and 12(b)(6) (ECF No. 24) is GRANTED; and Walgreens’ Motion to Dismiss

8 Plaintiffs Responses (ECF Nos. 31, 37, 38) do not add clarity to her Complaint. For example,
Plaintiff indicates that “the reasons for discrimination could range anywhere from being a woman, to being a
person of color, to being a participant of America’s assistance programs, the reasons for discrimination at this
Defendant’s business call for speculation.” (ECF No. 31 at 3.) It is not possible to discern the nature of
Plaintiffs claims from these vague assertions.

11

IH

Case l:19-cv-00701-RDB Document 42 Filed 02/24/20 Page 12 of 12

Plaintiffs Complaint (ECF No. 27) is GRANTED. Plaintiffs Complaint is DISMISSED as
to all Defendants. In light of the Plaintiffs pro se status, dismissal shall be WITHOUT
PREJUDICE.
A separate Order follows.
Dated: February 24, 2020

Richard D. Bennett
United States District Judge

12

is

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
*

TAMARA ROUHI,
Plaintiff,

Civil Action No. RDB-19-0701
• *

v.
CVS PHARMACY, et al.,

*

Defendants.

*

*

*

*

*

*

%

*

*

*

*

*

*

*

MEMORANDUM ORDER
On February 24, 2020, this Court issued a Memorandum Opinion and Order (ECF
Nos. 42, 43) dismissing pro se Plaintiff Tamara Rouhi’s (“Plaintiff’ or “Rouhi”) claims against
several pharmacies within the greater Baltimore area because her Complaint had failed to
establish an adequate basis for jurisdiction and otherwise did not state a claim of any kind.
Dismissal was without prejudice. On March 9,2020, Rouhi filed a Motion for Reconsideration
('ECF No. 44). The submission has been reviewed and no hearing is necessary. See Local Rule
105.6 (D. Md. 2018). For the reasons stated herein, Plaintiffs Motion for Reconsideration
(EOF No. 44) is DENIED.
BACKGROUND
The alleged facts of this case have been related in a previous Memorandum Opinion
of this Court. (ECF No. 42.) In brief, Rouhi alleges that Defendants CVS Pharmacy Giant
Pharmacy, Wegmans Pharmacy, Walgreens Pharmacy, and Nature Care/Health Mart
Pharmacy subjected her to unfair treatment when she attempted to obtain prescription
medication at these stores between 2017 and 2019. Rouhi filed her Complaint on March 6,

lb

*

2019. (ECF No. 1.) She alleges violations of several Maryland criminal statutes, Md. Code
Ann., Crim. Law § 3-802 (stalking), 3-803 (harassment), § 3-804 (misuse of telephone facilities),
and § 3-805 (misuse of an interactive computer .service), and brings a claim of “general
invasions of privacy.” (Compl. 2, ECF No. 1.) Rouhi also alleges “invidious discrimination,”
and “refusal of equal access to goods and services (Civil Right) [sic].” (Id) Rouhi purports to
bring this action under this Court’s federal question and diversity jurisdiction. On February
24, 2020, this Court issued a Memorandum Opinion and Order (ECF Nos. 42, 43) dismissing
her claims without prejudice.
STANDARD OF REVIEW
The Federal Rules of Civil Procedure do not expressly recognize motions for
“reconsideration.” Instead, Rule 59(e) authorizes a district court to alter, amend, or vacate a
prior judgment, and Rule 60 provides for relief from judgment. As explained by this Court in
Cross v. Fleet Reserve Ass’n Pension Plan, Civ. No. WDQ-05-0001, 2010 WL 3609530, at *2 (D.
Md. Sept, 14, 2010):
A party may move to alter or amend a judgment under Rule 59(e), or for relief
from a judgment under Rule 60(b). See Fed. R. Civ. P. 59(e) & 60(b). A motion
to alter or amend filed within 28 days of the judgment is analyzed under Rule
59(e); if the motion is filed later, Rule 60(b) controls. See Fed. R. Civ. P. 59(e);
MLC Auto., LLC V. Town of S. Pines, 532 F.3d 269, 280 (4th Cir. 2008); In re
Burnley, .988 F.2d 1, 2-3 (4th Cir. 1992).
(footnote omitted). Plaintiffs Motion is governed by Rule 59(e) because it was filed within 28
days of this Court’s February 24, 2020 Memorandum Opinion and Order.
The United States Court of Appeals for the Fourth Circuit has repeatedly recognized
that a judgment may be amended under Rule 59(e) in only three circumstances: (1) to

n

4

accommodate an intervening change in controlling law; (2) to account for new evidence not
available at trial; or (3) to correct a clear error of law or prevent manifest injustice. See,
Gagliano v. 'Reliance Standard Ufe Ins. Co., 547 F.3d 230, 241 n.8 (4th Cir. 2008). “In general,
reconsideration of a judgment after its entry is an extraordinary remedy which should be used
sparingly.” Pac. Ins. Co. v. Am. Nat’/Fire Ins. Co., 148 F.3d 396, 403 (4th Cir. 1998).
ANALYSIS
In her Motion, Rouhi argues that she is entitled to relief in order to correct a manifest
injustice. She faults this Court’s Memorandum Opinion as “badgering, and full of reiteration,
perjury and irrelevance” and requests that a different judge review her case. (ECF No. 44.)
This Court’s 12-page Memorandum Opinion gave due consideration to Plaintiffs claims and
explained precisely why they could not proceed. Dismissal was made withoutprejudice, thereby
permitting Plaintiff an opportunity to refile her claims and correct the defects discussed by
this Court.1 Aside from her general complaints, Rouhi does not provide any reasoning for
obtaining relief from the judgment or present any legal authorities for this Court’s
consideration.
Accordingly, it is HEREBY ORDERED this 10th day of March 2020, that Plaintiffs
Motion for Reconsideration (ECF No. 44) is DENIED.

Richard D. Bennett
United States District Judge

If Plaintiff chooses to reassert her claims, they may nonetheless be subject to applicable defenses.

If

FILED: August 24, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1462
(1:19-cv-00701 -RDB)

TAMARA ROUHI
Plaintiff - Appellant
v.
CVS PHARMACY; GIANT PHARMACY; WEGMANS PHARMACY;
WALGREENS PHARMACY; NATURE CARE/ HEALTH MART PHARMACYMCKESSON CORPORATION
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, this appeal is dismissed. This case is
remanded to the district court for further proceedings consistent with the court's decision.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.

/s/ PATRICIA S. CONNOR. CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1462
TAMARA ROUHI,
Plaintiff - Appellant,
v.
CVS PHARMACY; GIANT PHARMACY; WEGMANS PHARMACY;
WALGREENS PHARMACY; NATURE CARE/ HEALTH MART PHARMACY;
MCKESSON CORPORATION,
Defendants - Appellees.
Appeal from the United States District Court for the District of Maryland, at Baltimore.
Richard D. Bennett, District Judge. (l:19-cv-00701-RDB)
Submitted: August 20, 2020

Decided: August 24, 2020

Before GREGORY, Chief Judge, WYNN, and QUATTLEBAUM, Circuit Judges.
Dismissed and remanded by unpublished per curiam opinion.
Tamara Rouhi, Appellant Pro Se. Brian Donald Frey, Hilla Shimshoni, ALSTON & BIRD,
LLP, Washington, D.C.; Joseph Gregory Donlin, Richard William Scheiner, SEMMES,
BOWEN & SEMMES, Baltimore, Maryland; Aaron Andrew Nichols, WHITEFORD,
TAYLOR & PRESTON, LLP, Baltimore, Maryland; Alicia L. Shelton, ZUCKERMAN
SPAEDER, LLP, Baltimore, Maryland, for Appellees.
Unpublished opinions are not binding precedent in this circuit.

zo

PER CURIAM:
Tamara Rouhi seeks to appeal the district court’s orders dismissing her complaint
without prejudice and denying her Fed. R. Civ. P. 59 motion. This court may exercise
jurisdiction only over final orders, 28 U.S.C. § 1291, and certain interlocutory and
collateral orders, 28 U.S.C. § 1292; Fed. R. Civ. P. 54(b); Cohen v. Beneficial Indus. Loan
Corp., 337 U.S. 541, 545-46 (1949). “[Dismissals without prejudice generally are not
appealable ‘unless the grounds for dismissal clearly indicate that no amendment in the
complaint could cure the defects in the plaintiffs case.”’ Bing v. Brivo Sys., LLC, 959 F.3d
605,610 (4th Cir. 2020) (quoting Domino Sugar Corp. v. Sugar Workers Local Union 392,
10 F.3d 1064, 1067 (4th Cir. 1993)). Because the district court recognized the possibility
that amendment could cure the defects in the complaint, id, we conclude that the court’s
order is neither a final order nor an appealable interlocutory or collateral order.
Accordingly, we dismiss the appeal for lack ofjurisdiction and remand to the district
court with instructions to allow Rouhi to amend the complaint. We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
DISMISSED AND REMANDED

2

2/

Case #:
THE SUPREME COURT OF THE UNITED STATES
Tamara Rouhi

Original Case Number: 19CV701

Plaintiff/Appellant

Original Case/Complaint/Exhibits Filed:
3/6/19

V
CVS Pharmacy (CVS Health Inc)
Giant Pharmacy (Ahold Delhaize)
Wegmans Pharmacy (Wegmans Food
Markets Inc)
Walgreens Pharmacy (Walgreen Co.)
Nature Care/Health Mart Pharmacy
(McKesson Inc)

Appellate Court Case Number:
20-1462
A review from the US Court of Appeals
for the Fourth Circuit.
Civil Case.
Jury not requested.

Defendants/Appellee

APPENDIX VOLUME II: AUTHORITIES
Alston & Bird LLP

DeCaro Doran Siciliano

Semmes Attorneys at Law

950 F Street NW

Gallagher & DeBlasis

25

Washington, DC 20004

LLP

Suite

2022393300

17251 Melford Boulevard,

21201

Counsel for CVS Pharmacy

Suite 200 Bowie, MD 20715

Counsel

for

(CVS Health Inc)

3013524950

Pharmacy

(Wegmans

Whiteford, Taylor, Preston,

Counsel for Giant

Markets Inc)

LLP

Pharmacy (Ahold Delhaize)

Zuckerman Spaeder LLP

7 Saint Paul Street

Pro Se

100 E Pratt St Ste 2440

Baltimore, MD 21202

Plaintiff/Appellant

Baltimore. MD 21202

18009878705

Tamara Rouhi

4103320444

Counsel for Walgreens

125 Fennington Circle

Counsel

Pharmacy (Walgreen Co.)

Owings Mills MD 21117

Care/Health Mart Pharmacy

4105228217

(McKesson Inc)

South

Charles

Street,

1400 Baltimore, MD
410539504

for

Wegmans
Food

Nature

Table Of Contents
Authorities
Statute Title
Article III, Section 2, US
Constitution
Certiorari

Code
Article III, Section 2, US
Constitution
28 U.S. Code § 1254

Civil Rights

Page
Number
3
3

The Civil Rights Act of
1964, title II
Deprivation of Rights Under Color 18 U.S. Code § 242
of Law
Diversity Jurisdiction
28 U.S. Code §1332

4

Federal Question

28 U.S. Code §1331

5

Final decisions of district courts

28 U.S. Code §1291

5

First Amendment

First Amendment,
US Constitution
MD § 3-803

6
6

Harassment

3

4-5

Misuse of an interactive computer
service______■_________ _________
Misuse of telephone facilities

MD § 3-805

6

MD § 3-804

7

Obstruction of Justice

18 U.S. § 1505

7

Stalking

MD § 3-802

7-8

Supplemental Jurisdiction

28 U.S. Code § 1367

8-9

Thirteenth Amendment

Thirteenth Amendment,
US Constitution

9

2

Article III, Section 2, US Constitution
‘The judicial power shall extend to all cases, in law and equity, arising
under this Constitution, the laws of the United States, and treaties made,
or which shall be made, under their authority;-to all cases affecting
ambassadors, other public ministers and consuls;-to all cases of admiralty
and maritime jurisdiction;-to controversies to which the United States
shall be a party;-to controversies between two or more states,'-between a
state and citizens of another state;--between citizens of different
states;—between citizens of the same state claiming lands under grants of
different states, and between a state, or the citizens thereof, and foreign
states, citizens or subjects.
In all cases affecting ambassadors, other public ministers and consuls, and
those in which a state shall be party, the Supreme Court shall have
original jurisdiction. In all the other cases before mentioned, the Supreme
Court shall have appellate jurisdiction, both as to law and fact, with such
exceptions, and under such regulations as the Congress shall make.
The trial of all crimes, except in cases of impeachment, shall be by jury;
and such trial shall be held in the state where the said crimes shall have
been committed; but when not committed within any state, the trial shall
be at such place or places as the Congress may by law have directed.”
- Article III, Section 2, US Constitution, Cornell Law
Certiorari
“Cases in the courts of appeals may be reviewed by the Supreme Court
by the following methods:
(1)

By writ of certiorari granted upon the petition of any party to any civil or
criminal case, before or after rendition of judgment or decree;...”
- 28 U.S. Code § 1254, Cornell Law

The Civil Rights Act of 1964, Title II
All persons shall be entitled to the full and equal enjoyment of the
goods, services, facilities, privileges, advantages, and accommodations of
any place of public accommodation, as defined in this section, without
discrimination on the ground of race, color, religion, or national origin.”
-42 U.S.C. §2000a (a), Justice.gov

3

Deprivation of rights under color of law
“Whoever, under color of any law, statute, ordinance, regulation, or
custom, willfully subjects any person in any State, Territory,
Commonwealth, Possession, or District to the deprivation of any rights,
privileges, or immunities secured or protected by the Constitution or laws
of the United States, or to different punishments, pains, or penalties, on
account of such person being an alien, or by reason of his color, or race,
than are prescribed for the punishment of citizens, shall be fined under
this title or imprisoned not more than one year, or both; and if bodily injury
results from the acts committed in violation of this section or if such acts
include the use, attempted use, or threatened use of a dangerous weapon,
explosives, or fire, shall be fined under this title or imprisoned not more
than ten years, or both; and if death results from the acts committed in
violation of this section or if such acts include kidnapping or an attempt to
kidnap, aggravated sexual abuse, or an attempt to commit aggravated
sexual abuse, or an attempt to kill, shall be fined under this title, or
imprisoned for any term of years or for life, or both, or may be sentenced to
death.”
-18 U.S. Code § 242

Diversity Jurisdiction
“(a) The district courts shall have original jurisdiction of all civil
actions where the matter in controversy exceeds the sum or value of
$75,000, exclusive of interest and costs, and is between—
(1) citizens of different States;
(2) citizens of a State and citizens or subjects of a foreign state, except that
the district courts shall not have original jurisdiction under this subsection
of an action between citizens of a State and citizens or subjects of a foreign
state who are lawfully admitted for permanent residence in the United
States and are domiciled in the same State;
(3) citizens of different States and in which citizens or subjects of a foreign
state are additional parties; and
(4) a foreign state, defined in section 1603(a) of this title, as plaintiff and
citizens of a State or of different States.
(b) Except when express provision therefor is otherwise made in a statute
of the United States, where the plaintiff who files the case originally in the

Federal courts is finally adjudged to be entitled to recover less than the
sum or value of $75,000, computed without regard to any setoff or
counterclaim to which the defendant may be adjudged to be entitled, and
exclusive of interest and costs, the district court may deny costs to the
plaintiff and, in addition, may impose costs on the plaintiff.
(c) For the purposes of this section and section 1441 of this title—
(1) a corporation shall be deemed to be a citizen of every State and foreign
state by which it has been incorporated and of the State or foreign state
where it has its principal place of business, except that in any direct action
against the insurer of a policy or contract of liability insurance, whether
incorporated or unincorporated, to which action the insured is not joined as
a party-defendant, such insurer shall be deemed a citizen of—
(A) every State and foreign state of which the insured is a citizen;
(B) every State and foreign state by which the insurer has been
incorporated; and
(C) the State or foreign state where the insurer has its principal place of
business ...”
- 28 U.S. Code § 1332, Cornell Law

Federal Question
“The district courts shall have original jurisdiction of all civil actions
arising under the Constitution, laws, or treaties of the United States.”
-28 U.S. Code § 1331, Cornell Law

Final decisions of district courts
“The courts of appeals (other than the United States Court of Appeals
for the Federal Circuit) shall have jurisdiction of appeals from all final
decisions of the district courts of the United States, the United States
District Court for the District of the Canal Zone, the District Court of
Guam, and the District Court of the Virgin Islands, except where a direct
review may be had in the Supreme Court. The jurisdiction of the United
States Court of Appeals for the Federal Circuit shall be limited to the
jurisdiction described in sections 1292(c) and (d) and 1295 of this title.”
-28 U.S. Code § 1291, Cornell Law

5

First Amendment
“Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to assemble, and to
petition the Government for a redress of grievances.”
- First Amendment, congress.gov

Harassment
“(a) A person may not follow another in or about a public place or
maliciously engage in a course of conduct that alarms or seriously annoys
the other:
(1) with the intent to harass, alarm, or annoy the other;
(2) after receiving a reasonable warning or request to stop by or on behalf
of the other; and
(3) without a legal purpose.
(b) This section does not apply to a peaceable activity intended to express a
political view or provide information to others...”
-MD § 3-803, Justia

Misuse of an interactive computer service
A person may not maliciously engage in a course of
conduct, through the use of electronic communication, that alarms or
seriously annoys another:
“...

(b)

(i)

(1)

with the intent to harass, alarm, or annoy the other;

(ii) after receiving a reasonable warning or request to stop by or
on behalf of the other; and
(iii)

without a legal purpose... ”
-MD § 3-805 , Justia

(o

Misuse of telephone facilities
“(a)

A person may not use telephone facilities or equipment to

make:
an anonymous call that is reasonably expected to annoy, abuse,
(1)
torment, harass, or embarrass another;
(2)
repeated calls with the intent to annoy, abuse, torment, harass, or
embarrass another; or
(3)
a comment, request, suggestion, or proposal that is obscene, lewd,
lascivious, filthy, or indecent...”
-MD § 3-804, Justia

Obstruction of Justice
“...Whoever corruptly, or by threats or force, or by any threatening
letter or communication influences, obstructs, or impedes or endeavors to
influence, obstruct, or impede the due and proper administration of the law
under which any pending proceeding is being had before any department
or agency of the United States, or the due and proper exercise of the power
of inquiry under which any inquiry or investigation is being had by either
House, or any committee of either House or any joint committee of the
Congress—
Shall be fined under this title, imprisoned not more than 5 years or, if the
offense involves international or domestic terrorism (as defined in section
2331), imprisoned not more than 8 years, or both.”
-18 U.S. § 1505, Cornell Law

Stalking
“ (a) "Stalking" defined.- In this section, "stalking" means a malicious
course of conduct that includes approaching or pursuing another where the

7

person intends to place or knows or reasonably should have known the
conduct would place another in reasonable fear:
(1) (i) of serious bodily injury;
(ii) of an assault in any degree;
(iii) of rape or sexual offense as defined by §§ 3-303 through 3-308 of this
article or attempted rape or sexual offense in any degree;
(iv) of false imprisonment; or
(v) of death; or
(2) that a third person likely will suffer any of the acts listed in item (1) of
this subsection...”
-MD § 3-802, Justia

Supplemental Jurisdiction
(a) Except as provided in subsections (b) and (c) or as expressly
provided otherwise by Federal statute, in any civil action of which the
district courts have original jurisdiction, the district courts shall have
supplemental jurisdiction over all other claims that are so related to claims
in the action within such original jurisdiction that they form part of the
same case or controversy under Article III of the United States
Constitution. Such supplemental jurisdiction shall include claims that
involve the joinder or intervention of additional parties.
(b) In any civil action of which the district courts have original jurisdiction
founded solely on section 1332 of this title, the district courts shall not have
supplemental jurisdiction under subsection (a) over claims by plaintiffs
against persons made parties under Rule 14, 19, 20, or 24 of the Federal
Rules of Civil Procedure, or over claims by persons proposed to be joined as
plaintiffs under Rule 19 of such rules, or seeking to intervene as plaintiffs
under Rule 24 of such rules, when exercising supplemental jurisdiction
over such claims would be inconsistent with the jurisdictional
requirements of section 1332.
(c) The district courts may decline to exercise supplemental jurisdiction
over a claim under subsection (a) if—
(1) the claim raises a novel or complex issue of State law,

3

(2) the claim substantially predominates over the claim or claims over
which the district court has original jurisdiction,
(3) the district court has dismissed all claims over which it has original
jurisdiction, or
(4) in exceptional circumstances, there are other compelling reasons for
declining jurisdiction... ”
-28 U.S. Code § 1367, Cornell Law

Thirteenth Amendment
“Neither slavery nor involuntary servitude, except as a punishment for
crime whereof the party shall have been duly convicted, shall exist within
the United States, or any place subject to their jurisdiction.”
- Thirteenth Amendment, Congress.gov

i

